FEDERAL ELECTION COMMISSION 


OFFICE OF INSPECTOR GENERAL 





          FINAL REPORT



 Review of Outstanding Recommendations
            as of June 2013




          August 2013




      ASSIGNMENT No. OIG -13-03
Office of Inspector General’s Review of Outstanding Recommendations
June 2013 Report

Report Overview

As required by the Inspector General Act of 1978, as amended, the Office of Inspector General (OIG)
is responsible for conducting audits of the Federal Election Commission’s (FEC) programs and
operations. In addition to conducting and supervising audits, the OIG also has the responsibility to
conduct audit follow-ups to ensure that management has effectively implemented OIG
recommendations. Audit follow-up, to include the timely implementation of audit recommendations
by FEC management, is required by Office of Management and Budget Circular A-50, Audit
Followup, as revised, and FEC Directive 50: Audit Follow-Up.

Management has established a process to adhere to Directive 50 and provide semiannual status
reports to the Commission of their progress concerning outstanding OIG recommendations. The
official status (open/closed) of OIG recommendations is determined by the OIG once the OIG has
verified that management has adequately implemented the corrective actions. The Inspector General
can also make a decision to close recommendations or seek resolution from the Commission for
recommendations where the OIG and management disagree. The number of outstanding
recommendations is reported to the Commission and Congress in the OIG’s Semiannual Reports to
Congress.

This report provides the Commission with details regarding the:

       OIG’s Audit Follow-up process, see page 2;
       Audit follow-up meetings/communications with management to determine the status of
        outstanding audit recommendations, starting on page 3:
            a. Audit Follow-up Review of the FEC’s Employee Transit Benefit Program, see page 4;
            b. Audit of the Commission’s Property Management Controls, see page 4;
            c. 2010 Follow-up Audit of Privacy and Data Protection, see page 5;
            d. 2010 Follow-up Audit of Procurement and Contract Management, see page 6;
            e. Inspection of FEC’s Kastle Key Program, see page 6;
            f. Quality Assessment Audit of the Audit Division, see page 6; 

       Additional Outstanding Recommendation Closures, see page 7; and

       OIG Concerns, see page 9.


For this review period, the OIG reviewed six audits and inspections that had a total of 114
recommendations that were outstanding for six months or more as of December 2012, the date of our
last report. Collectively, the OIG closed 42 outstanding recommendations based on the OIG’s review
of management’s implementation of corrective action, or changes made to management processes
that would satisfy the audit issue. Since our December 2012 report on the status of outstanding
recommendations, the Quality Assessment Audit of the Audit Division report, released in September
2012, was added to the audit follow-up process because the recommendations have been outstanding
for more than six months. The OIG’s January 2013 Inspection of the FEC’s Disaster Recovery Plan
and Continuity of Operations Plans report contained 30 recommendations, which are not included as
these recommendations had not been outstanding for six months or more during this period of review.
The follow-up on the status of the inspection recommendations will be reported in the next
semiannual report of this kind.


                                                 1

Office of Inspector General’s Review of Outstanding Recommendations
June 2013 Report

In addition, at the IG’s discretion, four recommendations from the 2010 Follow-up Audit of Privacy
and Data Protection and two from the Audit of the Commission’s Property Management Controls
were closed. Management disagreed with the OIG’s recommendations and decided not to apply the
resources necessary to fully or adequately implement these recommendations. However, the OIG
continues to believe these recommendations are important, and would reduce the risk of fraud, waste,
and/or abuse to FEC programs if implemented. For details, see the Additional Outstanding
Recommendation Closures section of this report on page 7.

Audit Follow-up Process

At the conclusion of each OIG audit and inspection, it is management’s responsibility to develop a
corrective action plan (CAP). The CAP identifies the plan management has developed to address the
OIG’s findings and recommendations. The CAP should detail the following:

   1.   assignment of Audit Follow-up Official (AFO);
   2.   OIG finding(s);
   3.   OIG recommendation(s);
   4.   detailed corrective action to implement the OIG’s recommendation(s);
   5.   FEC staff person with responsibility to implement each task; and
   6.   expected completion dates.

Once management drafts the CAP, the OIG then reviews their CAP and provides comments to
management regarding the sufficiency of their planned corrective actions to address the OIG’s
findings. Management reviews the OIG’s comments, finalizes the CAP, and then provides the final
CAP to the Commission with a courtesy copy to the OIG.

FEC Directive 50 requires management to:

        “(3) Conduct regular meetings with the Inspector General throughout the year to follow-up
        on outstanding findings and recommendations, and include reports of these meetings in the
        written corrective action plan and semi-annual reports required to be presented to the
        Commission;…”

In order to work effectively with FEC management in adhering to Directive 50, and to ensure
continuous monitoring and adequate and timely audit resolution, the OIG meets with management at
least semiannually to discuss the progress of outstanding OIG recommendations. These meetings
provide management with timely OIG feedback for their semiannual reports to the Commission and
enables the OIG to keep abreast of management’s progress. The OIG schedules these meetings and
provides management with the results of our review prior to management’s reporting deadlines to the
Commission. The OIG also reports semiannually (status as of June & December) to the Commission
and management on recommendations that the OIG has closed (if any) based on follow-up reviews.
The semiannual meetings are also intended to assist the audit follow-up official in following
provisions 4 through 6 of Directive 50, which are listed as follows:




                                                 2

Office of Inspector General’s Review of Outstanding Recommendations
June 2013 Report

        “(4) Respond in a timely manner to all audit reports;
         (5) Engage in a good faith effort to resolve all disagreements; and
         (6) Produce semi-annual reports that are submitted to the agency head.”

Follow-up Meetings & Communications

To discuss the current status and progress of each outstanding recommendation, the OIG held
meetings and communicated via email with the applicable audit follow-up official, and/or
management staff for each audit/inspection. Out of the six follow-up reviews, the OIG was able to
close recommendations from all six audits/inspection.

Although several recommendations were closed, further corrective action from management is still
needed to implement the remaining outstanding recommendations. Specifically, the OIG has
concerns regarding the lack of progress and focus from the FEC’s Privacy Team regarding the
outstanding recommendations for the 2010 Follow-up Audit of Privacy and Data Protection, and the
Information Technology Division (ITD) regarding the Audit of the Commission’s Property
Management Controls (release date 3/2010). See the table below for a summary of progress made by
FEC management and the outstanding recommendations as of June 2013.

                                Outstanding Audit Recommendations Status Table

                                                                              2
          Title & Report Date                                     1           Additional       Total Open
                                      Total Outstanding            Total
                 of OIG                                                        Closed             as of
                                      Recommendations           Closed and
           Audits/Inspection                                                                   June 2013
                                     as of December 2012        Verified by
                                                                   OIG
     Audit Follow-up Review of
     the FEC’s Employee Transit              15                       7           N/A               8
     Benefit Program (7/2009)
     Audit of the Commission’s
     Property Management                     14                       5            2                7
     Controls (3/2010)
     2010 Follow-up Audit of
     Privacy and Data Protection             38                       4            4               30
     (3/2011)
     2010 Follow-up Audit of
     Procurement and Contract                29                       12          N/A              17
     Management (6/2011)
     Inspection of the FEC’s
     Kastle Key Program                       7                       6           N/A               1
     (12/2011)
     Quality Assessment Audit of
     the Audit Division (9/2012)
                                             11                       8           N/A               3
                                Total Outstanding Recommendations as of June 2013                  66

1
  This column includes recommendations that management has disagreed with or has not adequately implemented, and

the OIG concludes that these recommendations are still ‘open’. 

2
  The numbers in this column include recommendations that were closed by the OIG, but not implemented by FEC 

management. See the “Additional Recommendation Closures” section on pg. 7.



                                                           3

Office of Inspector General’s Review of Outstanding Recommendations
June 2013 Report

A.       Audit Follow-up Review of the FEC’s Employee Transit Benefit Program

The December 2012 Review of Outstanding Audit Recommendations report identified 15 open
recommendations. During the period ending June 30, 2013, the OIG met with the Transit Program
Manager and the Director of OHR to discuss status of open recommendations. Subsequent to the
meeting, OIG obtained documentation related to some of the outstanding recommendations. Based
on the OIG’s review of supporting documentation, and actions taken to implement FEC Directive 54
on the transit program, we were able to close seven (7) of the 15 open recommendations.

    B.   Audit of the Commission’s Property Management Controls

The Audit of the Commission’s Property Management Controls (Property Audit) audit report was
released in March 2010. The responsibility of implementing the audit recommendations for the
Property Audit is shared by the Administrative Services Division (ASD) and the Information
Technology Division (ITD). The OIG has worked with the ASD Managers3 and the Deputy Chief
Information Officer of Operations (Deputy CIO) to receive any updates regarding the implementation
of audit recommendations.

The Property Audit report identified 36 audit recommendations; ASD is responsible for the
implementation of 10 recommendations, and the ITD 26 of the 36 recommendations. In the OIG’s
December 2012 outstanding recommendations report, ASD had only one remaining open
recommendation, in which the OIG was able close this review period. All recommendations
assigned to ASD for the Property Audit have been adequately implemented and the related
findings have been officially closed. The OIG would like to note that the current ASD manager and
her staff worked diligently and cooperatively with the OIG throughout the audit follow-up process to
resolve these outstanding findings. The OIG appreciates ASD’s commitment to implementing the
audit recommendations to ensure that FEC programs and processes are working effectively and
efficiently.

ITD is responsible for the remaining 13 recommendations still outstanding as of the December 2012
report. For this review period, the OIG requested that ITD provide documentation for any corrective
actions that were implemented regarding these outstanding recommendations; however, no corrective
actions were implemented. Since management had not made any progress since the last review
period to implement any additional recommendations, the OIG conducted follow-up on open
recommendations where corrective actions were implemented by management in prior review
periods, but the corrective action was either ineffective or inadequate. Through this review, the OIG
was able to close four recommendations based on process improvements that would address the
recommendation, but several remain open.

The OIG is concerned with management’s lack of progress to improve their management controls
over FEC property. As ITD has a non personnel budget of approximately seven million dollars ($7
million), the largest budget (excluding personnel costs) in the entire agency, the OIG believes that


3
 The OIG has worked with one acting ASD manager and two permanent ASD managers since the completion of the
Property audit due to frequent turnover in this position.

                                                      4

Office of Inspector General’s Review of Outstanding Recommendations
June 2013 Report

management should be more focused to ensure that the proper controls are in place to reduce the risk
of any excessive cost, waste, or abuse to the agency and its programs.

The OIG conducted an additional assessment of all outstanding recommendations, and the Inspector
General (IG) decided to close two (2) outstanding recommendations. This decision was made because
management disagreed with the OIG’s recommendation and/or decided not to apply the resources
necessary to fully or adequately implement the recommendations. However, the IG believes
management should focus their resources on the remaining open recommendations. See details in the
Additional Recommendation Closures section, pg. 7.

C.     2010 Follow-up Audit of Privacy and Data Protection

For the 2010 Follow-up Audit of Privacy and Data Protection, the OIG’s December 2012 report
identified 38 open recommendations. The OIG met with the Privacy Team on May 14, 2013 to
discuss the status of the 38 open recommendations. The OIG was able to verify and close only four
(4) recommendations during this review period.

Also, management did not implement a planned system that was noted in the OIG’s prior outstanding
recommendations report that would have the capability to keep a record of the laptops encrypted by
the FEC. Since this corrective action was not implemented by management, this recommendation
remains open. It is essential that ITD has assurance that all issued laptops have been encrypted to
reduce the risk of unauthorized access to sensitive information. For instance, ITD provided FEC staff
with new laptops this fiscal year that were not encrypted, and instructed staff via email to download
the encryption software from the network to their laptops to encrypt the laptop hard drives. If there
are any FEC employees who did not adhere to ITD’s email, there are potentially FEC laptops that are
accessing FEC’s network and/or being removed from the agency building that are not encrypted. If
so, and one of these laptops were to be lost or stolen, the information contained on the laptop,
potentially sensitive, could be released to the public. ITD does not have an adequate process/system
in place that can identify if there are laptops that are not encrypted, or ensure all devices accessing the
network or that have been removed from the building (i.e. telework purposes) have been encrypted. If
all devices are not encrypted, it also increases the risk that outside hackers can access or manipulate
FEC sensitive information (i.e. Disclosure data).

The OIG is aware that the Privacy Team has encountered many staff changes; however, our concern
is that the Privacy Team has not made much progress in resolving these outstanding
recommendations. The open recommendations have been outstanding since March 2011 with
minimal progress from the Privacy Team to implement corrective action.

The OIG conducted an additional assessment of all outstanding recommendations, and the Inspector
General decided to close four (4) outstanding recommendations. This decision was made because
management disagreed with the OIG’s recommendation and/or decided not to apply the resources
necessary to fully or adequately implement the recommendations. The IG believes management
should focus their resources on the remaining open recommendations. See details in the Additional
Recommendation Closures section, pg. 7.



                                                    5

Office of Inspector General’s Review of Outstanding Recommendations
June 2013 Report


D.     2010 Follow-up Audit of Procurement and Contract Management

The December 2012 Review of Outstanding Recommendations report noted 29 outstanding
recommendations. In March 2013, the OIG met with the outgoing Director of Procurement
(Contracting Officer), to discuss processes implemented to address the recommendations. The OIG
selected a sample of contract files to verify if controls were fully implemented. Based on the OIG’s
review of 13 contract files and follow-up work performed, the OIG was able to close six (6) of the 29
outstanding audit recommendations. In June 2013, the OIG met with the acting Chief Financial
Officer (CFO) and other Office of the CFO staff members to discuss the remaining outstanding audit
recommendations, as well as additional progress made since the CO left the agency. Subsequent to
the meeting, the OIG obtained and reviewed documentation to support corrective actions to address
some of the open recommendations. Based on this review, the OIG was able to close an additional six
(6) recommendations. Therefore, a total of 12 of the 29 recommendations have been closed since our
last report in December 2012.

E.     Inspection of the FEC’s Kastle Key Program

The December 2012 Review of Outstanding Recommendations report noted seven outstanding
recommendations. During this follow-up review period, six of the seven recommendations were
closed based on the finalization of the revised Kastle key policy.

One recommendation remains open. To test the implementation of the recommendation, the OIG
selected a sample of six Kastle key request forms with temporary dates to: (1) ensure the correct
temporary (expiration) date was entered in the Kastle system; (2) determine if the temporary date had
past and was not updated; and (3) whether the key had been deactivated appropriately. The OIG’s
review noted one of the six sampled temporary Kastle key assignments did not have a required date
entered in the system. This issue was also noted in the OIG’s prior review, particularly with
temporary keys issued to staff in the Reports and Analysis Division (RAD), who frequently request
temporary date extensions. It is important that ASD enter the correct and/or updated temporary date
of the Kastle keys assigned to ensure that staff and contractors do not have building access beyond
the date authorized by management. To better track requests, the OIG suggests that ASD require a
new Kastle key form whenever a date extension occurs, rather than allowing staff to provide an email
to request date extensions.

F.     Quality Assessment Audit of the Audit Division

The Quality Assessment Audit of the Audit Division (Audit Division) audit report was released in
September 2012. The Audit Division audit report identified 11 audit recommendations to improve
the quality assurance of audits conducted by the Audit Division (AD). In June 2013, the OIG met
with AD management to discuss corrective actions taken to address the recommendations.
Subsequent to the meeting, the AD Program Manager provided evidence to support processes
implemented. Based on the OIG review of supporting documentation, we were able to close eight (8)
of the 11 open recommendations. The AD management informed the OIG that corrective actions
have been taken to address the other three (3) recommendations. Once the OIG can review evidence
of corrective action, the OIG will be able to close the remaining recommendations.

                                                  6

Office of Inspector General’s Review of Outstanding Recommendations
June 2013 Report

The OIG would like to recognize the work by the AD Program Manager and AD management to
promptly and sufficiently implement the audit recommendations. These efforts by Audit Division
have demonstrated a strong commitment to ensure a quality audit process.

Additional Recommendation Closures

The OIG reviewed all open recommendations that have been open for several follow-up review
cycles, along with management’s responses and/or plan of action. At the IG’s discretion, based on
the assessment of the open recommendations, a total of 6 recommendations were closed from the
Property Audit, and the Privacy Audit.

These recommendations were closed by the OIG because management disagreed with the
recommendation and made the decision to focus their resources on other areas and not fully
implement these recommendations. However, the OIG still believes that implementation of these
recommendations by management would reduce the risk of fraud, waste, and abuse to agency
programs.

The recommendations that were not implemented by management, but have been closed by the IG,
are listed below, along with the potential risk to the agency of not implementing the
recommendations.

Audit of the Commission’s Property Management Controls:

1.	 Recommendation 2h: Provide the international add-on plan to the standard monthly service for
    users who frequently travel internationally for business. Require written request for the
    international add-on plan for Blackberry users who do not frequently travel internationally for
    business. This request should include their beginning and ending date of travel. Based on the
    information, the international service option should be promptly activated and terminated.

       	 OIG Assessment: Management is not deactivating the international add-on plan in a
          timely manner once the staff person has returned from travel. In some cases, the travel
          dates are not provided in the email in order for management to know when the add-on
          plan should be deactivated. Management has stated that they believe the human error of
          not deactivating this feature in a timely manner is at an acceptable level, and no further
          action will be taken. However, management is incurring additional cost to the agency
          because they are paying for services that are not in use; therefore, agency funds are being
          wasted. Especially during periods of strict budget control, it is troubling to the OIG that
          the program office is not planning to implement better cost controls.

2.	 Recommendation 3c: ITD staff coordinate with GSA and implement processes and procedures
    to ensure:
        a.	 [Blackberry] devices no longer needed should be made available to other government
            agencies or non-profit organizations; and
        b.	 obsolete or broken devices are disposed in a manner that is not detrimental to public
            health.


                                                 7

Office of Inspector General’s Review of Outstanding Recommendations
June 2013 Report

       	 OIG Assessment: Management has not updated their policy to reflect their current
          process for the disposition of devices to GSA. Without proper documentation of current
          policies and procedures, it would be more difficult for management to hold staff
          accountable for the unauthorized use or disposition of the property (on-line
          trading/selling, retaining for personal use, etc.). In addition, in the event of staff
          changes/turnover in the program office, there are no documented policies on this process
          to ensure the disposal process is performed in accordance with proper procedures.

2010 Follow-up Audit of Privacy and Data Protection:

1. Recommendation 1b: Identify, document in position descriptions and performance plans, and
   assign specific roles and responsibilities for the monitoring and reporting of compliance with
   Federal and Commission privacy requirements.

           	 OIG Assessment: The lack of clear roles and responsibilities for the Privacy team
              members could result in important work not being accomplished and
              recommendations remaining open for extended periods of time because the Privacy
              team members have not made these tasks a priority, and may not understand their
              responsibilities for the privacy program.

2. Recommendation 6d: Perform a review of the process and systems used to maintain the inventory
   of mobile devices to ensure that they are appropriately designed to maintain a complete and
   accurate inventory. A complete physical inventory of all mobile devices purchased less those
   disposed should be performed and reconciled to the existing mobile device inventory listing.

           	 OIG Assessment: In order to detect potential fraud, proper reconciliations should be
              performed periodically for all mobile devices. Currently, management can not
              identify if they have the correct number of mobile devices on hand if a reconciliation
              of devices purchased less obsolete/disposed devices is not performed. Without an
              expectation of the inventory count, there is a greater opportunity for devices to be
              removed from the agency for personal use, sold, or other unauthorized use because
              management does not have proper monitoring procedures.

3. Recommendation 6f: Implement a process and form requiring employees and contractors to sign
   when they receive a mobile device acknowledging their receipt of the asset and maintain a record
   of these sign-offs.

           	 OIG Assessment: Management decision to not require employees to sign for receipt
              of a mobile device (laptop, Blackberry, etc.) increases the chance that FEC has
              inadequate inventory records, which was identified during the Privacy Audit. In
              addition, to hold employees accountable for proper stewardship of FEC issued
              equipment, there needs to be evidence that the physical device was provided to the
              employee. If there are no records of when a device was distributed, who it was
              distributed to, and which device was issued, management can not properly
              track/monitor the life cycle of the device. This allows for the potential loss of agency
              assets with little or no accountability by agency staff or management.

                                                   8

Office of Inspector General’s Review of Outstanding Recommendations
June 2013 Report


4. Recommendation 9: Implement logging for all computer-readable data extracts from databases
   holding personally identifiable information (PII).

           	 OIG Assessment: Without logging, FEC will not have a record of system user
              activity and the nature of the system activity which is essential in the event of a system
              intrusion or unauthorized activity occurs. It is more difficult for the FEC to capture
              the activity of employees or the activity of unauthorized individuals (i.e. hackers) if
              they penetrate the FEC’s network.

OIG Concerns

Currently, the FEC lacks the accountability necessary to ensure compliance with all aspects of
Directive 50: Audit Follow-Up. It is essential that the Commission not only requires management to
report on a semi-annual basis the status of outstanding recommendations, but also develop a process
to ensure the Audit Follow-up Officials are being held accountable for implementing outstanding
recommendations in a timely manner that are beneficial to the agency’s mission and will improve
agency programs. Without the accountability necessary to ensure corrective actions are taken by
management, the mission of the agency is consistently operating under weaker controls that can
increase cost, expose the agency to risks, and increase the potential of fraud, waste, and abuse to
agency programs.




                                                   9

